TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Multiple Use of Taxpayer Identification
                  Numbers Continues to Result in Significant
                     Erroneous Exemptions and Credits



                                      September 14, 2010

                              Reference Number: 2010-40-117




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulaton or Statute




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


MULTIPLE USE OF TAXPAYER                               returns. Over 5 years, erroneous exemptions
IDENTIFICATION NUMBERS CONTINUES                       and credits could exceed $1.9 billion.
TO RESULT IN SIGNIFICANT                               The IRS faces significant difficulties in
ERRONEOUS EXEMPTIONS AND                               preventing erroneous tax benefits associated
CREDITS                                                with multiple TIN uses. However, there are
                                                       actions the IRS can take to reduce erroneous
                                                       claims. These include:
Highlights                                             •   Expanding the issuance of notices.
Final Report issued on September 14,                   •   Initiating additional compliance efforts on
2010                                                       multiple TIN uses for erroneous Earned
                                                           Income Tax Credit claims.
Highlights of Reference Number: 2010-40-117            •   Disallowing multiple uses of IRS-issued
to the Internal Revenue Service Commissioner               identification numbers.
for the Wage and Investment Division.                  •   Initiating compliance efforts to prevent the
IMPACT ON TAXPAYERS                                        abusive use of TINs.

Any person required to file a tax return is            WHAT TIGTA RECOMMENDED
required to include an identifying number,             TIGTA recommended that the Commissioner,
referred to as a Taxpayer Identification Number        Wage and Investment Division:
(TIN). For the majority of filers, the TIN is the
individual’s Social Security Number. Generally,        •   Expand the issuance of notices to more
a TIN cannot be used on more than one tax                  individuals involved in the multiple use of
return per year. When a TIN is used on more                TINs.
than one tax return per year, individuals may          •   Identify alternative compliance processes to
inappropriately receive tax benefits.                      address all individuals involved in the
                                                           multiple use of TINs to claim the EITC.
WHY TIGTA DID THE AUDIT
                                                       •   Implement a process to prevent and/or
This audit was initiated because multiple TIN              recover erroneous claims resulting from the
use has grown from almost 2.2 million TINs                 multiple use of an Individual Taxpayer
used on 3.9 million tax returns in Tax Year                Identification Number.
(TY) 2005 to 2.6 million TINs used on 4.6 million
tax returns in TY 2007. The overall objective of       In addition, the IRS should establish processes
this review was to assess the effectiveness of         to prevent and/or recover tax benefits
the Internal Revenue Service’s (IRS)                   erroneously provided to taxpayers when a TIN is
identification of multiple TIN uses and its ability    used excessively in a single tax year.
to prevent individuals from inappropriately            The IRS agreed with two of our four
receiving tax benefits as a result of the improper     recommendations. The IRS did not agree to
use of TINs.                                           expand the issuance of notices or to expand its
                                                       processes for preventing and/or recovering
WHAT TIGTA FOUND
                                                       erroneous claims resulting from an Individual
TIGTA estimates that individuals inappropriately       Taxpayer Identification Number.
received at least $380 million in personal tax
                                                       We believe expanding the issuance of notices to
exemptions and tax credits in TY 2007 as a
                                                       additional individuals is consistent with IRS’
result of the multiple use of TINs. TIGTA
                                                       current processes. In addition, we believe the
identified 2,450,205 unique TINs that were used
                                                       IRS has a responsibility to use the data available
to claim a personal exemption or one or more of
                                                       to validate a taxpayer’s claim with regard to an
the tax credits TIGTA analyzed in TY 2007.
                                                       Individual Taxpayer Identification Number.
These TINs were used on over 3.2 million tax
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           September 14 , 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Multiple Use of Taxpayer Identification Numbers
                             Continues to Result in Significant Erroneous Exemptions and Credits
                             (Audit # 200940028)

 This report presents the results of our review in assessing the effectiveness of the Internal
 Revenue Service’s identification of multiple uses of Taxpayer Identification Numbers (TIN) and
 its ability to prevent individuals from inappropriately receiving tax benefits as a result of the
 improper use of TINs. This audit was a followup to two prior Treasury Inspector General for
 Tax Administration reviews of multiple TIN uses.1 This audit was included in our
 Fiscal Year 2009 Annual Audit Plan and addresses the major management challenge of
 Erroneous and Improper Payments and Credits.
 Despite management’s agreement with two recommendations and partial agreement with
 another, management disagrees with our outcome measures. The basis for management’s
 disagreement is that it believes diverting resources from other types of audits to perform multiple
 TIN use audits would result in a decrease in revenue protected from those other audits.
 However, our recommendations included expanding the issuance of soft notices and identifying
 alternative compliance processes, not the performance of an audit. The intent of these
 recommendations was to avoid the need to divert resources from other types of audits.
 Furthermore, for those recommendations with which management is in agreement, corrective
 actions, which include issuing notices and developing referral processes for those most egregious



 1
  Duplicate Dependent and Qualifying Child Overclaims Result in Substantial Tax Revenue Losses Each Year
 (Reference Number 2001-40-059, dated March 15, 2001) and Efforts to Prevent Improper Tax Benefits Resulting
 From Multiple Uses of Taxpayer Identification Numbers Can Be Improved (Reference Number 2006-40-007, dated
 November 4, 2005).
                               Multiple Use of Taxpayer Identification
                             Numbers Continues to Result in Significant
                                Erroneous Exemptions and Credits


multiple TIN uses, are dated January 2013. We are concerned about this delay of over 2 years to
implement corrective actions because it will result in continued significant revenue losses.
Management’s complete response to the draft report is included as Appendix VII.
Copies of this report are also being sent to the Internal Revenue Service managers affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services) at (202) 622-5916.




                                                                                                2
                                         Multiple Use of Taxpayer Identification
                                       Numbers Continues to Result in Significant
                                          Erroneous Exemptions and Credits




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Efforts Have Been Expanded to Identify and Prevent Revenue
          Loss From the Multiple Use of Taxpayer Identification Numbers ............... Page 6
          Multiple Use of Taxpayer Identification Numbers Continues
          to Result in Significant Erroneous Exemptions and Credits ........................... Page 8
                    Recommendation 1:........................................................ Page 11

                    Recommendation 2:........................................................ Page 13

                    Recommendation 3:........................................................ Page 14

                    Recommendation 4:........................................................ Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Outcome Measures............................................................... Page 22
          Appendix V – Treasury Inspector General for Tax Administration
                       Audit Reports ........................................................................ Page 30
          Appendix VI – Soft Notice Sent to First-Time Multiple Taxpayer
                        Identification Number Users ................................................ Page 31
          Appendix VII – Management’s Response to the Draft Report ..................... Page 33
                    Multiple Use of Taxpayer Identification
                  Numbers Continues to Result in Significant
                     Erroneous Exemptions and Credits




                        Abbreviations

ACTC              Additional Child Tax Credit
CCC               Child and Dependent Care Credit
CTC               Child Tax Credit
CY                Calendar Year
DUPTIN database   Duplicate TIN Use Database
EITC              Earned Income Tax Credit
FY                Fiscal Year
IRTF              Individual Return Transaction File
IRS               Internal Revenue Service
IRSN              Internal Revenue Service Number
ITIN              Individual Taxpayer Identification Number
SSN               Social Security Number
TIN               Taxpayer Identification Number
TY                Tax Year
                                       Multiple Use of Taxpayer Identification
                                     Numbers Continues to Result in Significant
                                        Erroneous Exemptions and Credits




                                                Background

Any person required to file a tax return is required to include an identifying number, referred to
as a Taxpayer Identification Number (TIN). For the majority of filers, the TIN is generally the
                                      individual’s Social Security Number (SSN). A TIN can also
                                      be an Individual Taxpayer Identification Number (ITIN) or
      Taxpayer Identification
    Numbers (TIN) are used by         an Internal Revenue Service Number (IRSN), which are
   the IRS to identify taxpayers.     identifying numbers assigned by the Internal Revenue
    The most common TIN is a          Service (IRS) when an individual cannot obtain an SSN or
     Social Security Number.          there is a problem with an individual’s tax account involving
                                      the individual’s SSN.
Individuals use TINs for themselves, their spouses, and their children on their U.S. Individual
Income Tax Returns (Form 1040) to claim certain tax benefits. These benefits include personal
exemptions and other tax credits and deductions that reduce the amount of income tax owed.
There are six TIN locations that can be used on a tax return. Figure 1 shows that a TIN may be
used for a:
       •   Primary taxpayer – the individual who is filing the tax return.
       •   Secondary taxpayer – the spouse of the primary taxpayer.
       •   Dependent of the individual filing the tax return. An individual can claim up to four
           dependents on the front of his or her tax return.1




1
    More than four dependents can be claimed, but the taxpayer must attach a statement to his or her tax return.
                                                                                                               Page 1
                               Multiple Use of Taxpayer Identification
                             Numbers Continues to Result in Significant
                                Erroneous Exemptions and Credits



                      Figure 1: Locations of a TIN on a Form 1040




 Source: Form 1040.

Generally, a TIN cannot be used to claim a personal exemption or credit on more than one tax
return per year. When a TIN is used on more than one tax return, a multiple use occurs and
individuals may inappropriately receive tax benefits. For example:
       Taxpayer A and Taxpayer B both file a tax return. Taxpayer A claims a child (child X) as
       a dependent on his or her tax return and claims the dependent exemption to reduce tax
       liability. Taxpayer B also claims child X as a dependent and claims the dependent
       exemption. According to Form 1040 instructions, an individual can only be claimed for
       the dependent exemption one time in any tax year. Since a dependent exemption can only
       be claimed once, one of these taxpayers’ tax liabilities will be incorrectly reduced as a
       result of claiming the dependent exemption.

The IRS captures every TIN used on individual tax returns and categorizes
duplicate TIN uses
The IRS Duplicate TIN Use (DUPTIN) database captures every TIN used on an individual
income tax return. The DUPTIN database scans all individual tax returns and counts how many
times a specific TIN is used during the current year. Figure 2 details the categorization that is
used when a multiple-use TIN is identified.




                                                                                           Page 2
                                      Multiple Use of Taxpayer Identification
                                    Numbers Continues to Result in Significant
                                       Erroneous Exemptions and Credits



                             Figure 2: DUPTIN Database Categorization

    Category   In the Same Tax Year, the TIN Was Used:

       1       To claim the Earned Income Tax Credit (EITC) on more than one tax return.
       2       For a dependent on more than one tax return.
               For a primary taxpayer on one tax return and for a secondary taxpayer on another tax
       3
               return with a filing status of 2 or 6.2
               For a secondary taxpayer on one tax return and for a dependent and/or for EITC on
       4
               another tax return.
               For a primary taxpayer and/or a secondary taxpayer and the tax return indicates the
       5       individual cannot be claimed as a dependent by someone else, but the TIN has also been
               used for a dependent on another tax return.
               For a primary taxpayer with a filing status other than 3 or 4 and was also used for a
       6
               secondary taxpayer on another tax return with a filing status 3.3
               For a secondary taxpayer more than once or was used for a primary taxpayer more than
       7
               once from more than one IRS processing center.4
               For a qualifying child more than once on the Form 8839, Form 2441, Form 8863, or
       8
               Form 8901.5
               For a primary taxpayer more than once within the same data cycle or used for a
       9
               secondary taxpayer more than once within the same data cycle.
Source: IRS documentation of the DUPTIN database.

Multiple TIN use continues to grow
Multiple TIN use has grown from almost 2.2 million TINs used 4.4 million times on 3.9 million
tax returns in Tax Year (TY) 2005 to 2.6 million TINs used 5.2 million times on 4.6 million tax
returns in TY 2007. Figure 3 shows the volume of TINs used on more than one tax return for
TY 2005 through TY 2007.



2
  Filing status 2 is a married taxpayer filing a joint tax return. Filing status 6 is a married taxpayer filing a separate
tax return and the spouse is not required to file a tax return.
3
  Filing status 3 is a married taxpayer filing a separate tax return and the spouse is also filing a separate tax return.
Filing status 4 is a taxpayer filing as an unmarried Head of Household.
4
  The IRS Submission Processing sites process paper and electronic submissions, correct errors, and forward data to
the Computing Centers for analysis and posting to taxpayer accounts.
5
  Child and Dependent Care Expenses (Form 2441), Qualified Adoption Expenses (Form 8839), Education Credits
(American Opportunity, Hope, and Lifetime Learning Credits) (Form 8863), and Information on Qualifying
Children Who Are Not Dependents (for Child Tax Credit) (Form 8901). Form 8901 was discontinued in TY 2009.
                                                                                                                  Page 3
                                    Multiple Use of Taxpayer Identification
                                  Numbers Continues to Result in Significant
                                     Erroneous Exemptions and Credits



                Figure 3: Multiple TIN Uses for TYs 2005 Through TY 2007

                                         TY 2005                 TY 2006                 TY 2007

            Unique TINs                      2,192,168               1,980,282               2,613,568
            Number of Times
            TINs Were Used                   4,443,384               4,014,956               5,278,693
            Number of Tax
            Returns                          3,900,549               3,535,531               4,622,707
                                                                      6
          Source: The IRS Individual Return Transaction File (IRTF) for TY 2005 through TY 2007.

Prior Treasury Inspector General for Tax Administration reviews identified
concerns with IRS identification and resolution of multiple TIN uses
We conducted two prior reviews of the IRS processes to identify and resolve multiple uses of
TINs. ************************2(f)******************************************
*****************************2(f)*******************************************
************.
*****************************2(f)*******************************************
***************************************************************************
****.7 **********************************************************************
****************************************************************************
****************************************************************************
***************************************************************************
****************************************************************************
****************.
******************************2(f)******************************************
**************************************************************************.8
**************************************************************************
****************************************************************************
***************************************************************************
****************************************************************************
****************************************************************************
****************************************************************************


6
  The IRTF contains all edited, transcribed, and error-corrected data from the Form 1040 series and related forms.
7
  Duplicate Dependent and Qualifying Child Overclaims Result in Substantial Tax Revenue Losses Each Year
(Reference Number 2001-40-059, dated March 15, 2001).
8
  Efforts to Prevent Improper Tax Benefits Resulting From Multiple Uses of Taxpayer Identification Numbers Can
Be Improved (Reference Number 2006-40-007, dated November 4, 2005).
                                                                                                            Page 4
                             Multiple Use of Taxpayer Identification
                           Numbers Continues to Result in Significant
                              Erroneous Exemptions and Credits



***********2(f)**************. A detailed summary of our audit recommendations and the
IRS’ corrective actions can be found in Appendix V.
This review was performed at the IRS Wage and Investment Division Headquarters in Atlanta,
Georgia, in the Accounts Management function, the Electronic Tax Administration and
Refundable Credits function, and the Customer Account Services Submission Processing
function. We also conducted testing in the Small Business/Self-Employed Division’s
Examination function in Washington, D.C. Testing was completed during the period April 2009
through April 2010. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                      Page 5
                                   Multiple Use of Taxpayer Identification
                                 Numbers Continues to Result in Significant
                                    Erroneous Exemptions and Credits




                                     Results of Review

Efforts Have Been Expanded to Identify and Prevent Revenue Loss
From the Multiple Use of Taxpayer Identification Numbers
The IRS has implemented a number of processes to identify and prevent revenue loss resulting
from multiple uses of TINs. Many of these processes were implemented in response to our prior
audit reports. These processes include:
•   Expanding Information Captured in the DUPTIN Database:
    The IRS continues to expand on the TINs being captured in the DUPTIN database. This
    includes capturing dependent TINs found on an Amended U.S. Individual Income Tax
    Return (Form 1040X) or other correspondence sent to the IRS. In January 2002, the IRS also
    started capturing student TINs from the Education Credits (American Opportunity, Hope,
    and Lifetime Learning Credits) (Form 8863). A new tool was also developed to enable IRS
    employees to edit and correct TIN information in the DUPTIN database.
In addition to expanding the information captured in the DUPTIN database, the IRS has
continued to identify uses of this information to prevent erroneous exemptions and credits:
•   Rejecting Electronically Filed Tax Returns When Multiple TIN Uses Are Identified:
    The IRS rejects electronically filed (e-filed) tax returns when certain multiple TIN use
    conditions exist. Figure 4 shows the volume of e-filed tax returns rejected for a multiple TIN
    use for Calendar Year (CY) 2007 to CY 2009.
               Figure 4: Electronically Filed Return Multiple-Use TIN Rejects
                                   CY 2007 to CY 20099
                                                        CY 2007         CY 2008          CY 2009
          Number of Multiple-Use TIN Rejects             2,653,141       3,101,085        2,949,053
         Source: IRS Weekly Error Reject Codes report for CY 2007 through CY 2009.




9
 CY 2007 data are as of October 21, 2007. CY 2008 data are as of October 20, 2008. CY 2009 data are as of
October 20, 2009.
                                                                                                       Page 6
                                      Multiple Use of Taxpayer Identification
                                    Numbers Continues to Result in Significant
                                       Erroneous Exemptions and Credits



•      Including Duplicate TINs Used to Claim the EITC in the Audit Scoring Process:
       The IRS uses DUPTIN database information in its audit scoring process to determine if a
       child’s TIN was used more than once to claim the EITC. As a result, the IRS can stop an
       EITC claim based on a child’s TIN that was used inappropriately (more than once) before the
       refund is issued to the individual.
•      Identifying and Resolving Multiple Primary TIN and Secondary TIN Uses:
       The IRS identifies each tax return for which the primary TIN or the secondary TIN on the tax
       return has been used as a primary TIN or a secondary TIN on a previously filed tax return.
       The IRS suspends processing of these tax returns until the multiple TIN use is resolved. In
       Fiscal Year (FY) 2008, the IRS resolved 66,585 cases involving the duplicate use of the
       primary TIN or the secondary TIN.
•      Issuing Notices to Individuals Using the Same TINs for Dependents:
       Starting in TY 1996, the IRS began issuing notices to each individual involved in multiple
       dependent TIN uses. These notices are issued to individuals who are first-time users of a
       duplicate dependent TIN to claim an exemption, EITC, or Child Tax Credit (CTC) if the TIN
       has already been used on a tax return for a dependent or primary taxpayer. The notice10
       informs the individual of the multiple dependent TIN use and asks the individual to verify the
       dependent TIN(s) used on his or her tax return before filing next year’s tax return. The
       notice further encourages individuals to file an amended return (Form 1040X) if they find the
       use of a dependent TIN was in error.
           Figure 5: Multiple Dependent TIN Letters Issued – CY 2007 to CY 2009
                                             CY 2007                CY 2008    CY 2009
            Notices Issues                   690,764                 800,511    589,763
            Source: IRS Notice Gatekeeper web site.

       According to a May 2009 IRS study on the effectiveness of the notices issued for TY 2006,
       10 percent of individuals who received notices filed amended tax returns and 92 percent
       changed their filing behavior in the subsequent tax year. According to the IRS,
       294,681 amended returns were filed by individuals who received the notices between
       TY 2005 and TY 2007.
•      Initiating Audits of Individuals Who Are Involved in the Multiple Use of TINs:
       The IRS has implemented processes to audit tax returns of individuals who use TINs that
       have been used more than once. These audits occur after the individual has already received
       a tax benefit inappropriately.

10
     See Appendix VI for an example of the notices individuals receive.
                                                                                              Page 7
                                   Multiple Use of Taxpayer Identification
                                 Numbers Continues to Result in Significant
                                    Erroneous Exemptions and Credits



                     Figure 6: Multiple TIN Audits – FY 2007 to FY 2009
                                         FY 2007                FY 2008                FY 2009
         Audits Closed                           54,549                35,437                 38,565
         Recommended
                                          $140 million            $90 million           $103 million
         Assessments
        Source: IRS Audit Information Management System.

Although the IRS has improved its processes to identify multiple TIN uses and prevent issuance
of erroneous tax benefits, there are still significant limitations. As such, multiple TIN use that
results in erroneous exemptions and credits is still a substantial problem.

Multiple Use of Taxpayer Identification Numbers Continues to Result
in Significant Erroneous Exemptions and Credits
Our review determined that individuals inappropriately received at least $380 million in personal
tax exemptions and credits in TY 2007 as a result of the multiple use of TINs. This is due to the
inability of the IRS to accurately identify individuals who are improperly using TINs at the time
tax returns are processed. Over 5 years, the erroneous exemptions and credits could exceed
$1.9 billion for the types of issues we evaluated. Post-processing activities could potentially
recover a portion of the erroneous benefits received.
                                                                         Multiple uses of TINs resulted
Our estimate of the dollar amount of erroneous                      in at least $380 million in
exemptions and credits is for a specific subset of the          erroneous tax exemptions and
population of tax returns with a multiple TIN use. Our            tax credit claims in TY 2007.
review included 662,346 of the tax returns with a multiple
TIN use. These individuals received tax refunds11 as a result of their erroneous claims or there
was no indication on their tax accounts that the IRS had adjusted any of the items we analyzed
(no action was taken based on the multiple TIN use). Our analysis was for those individuals who
inappropriately received the personal exemptions or one or more of the five tax credits listed
below. The Internal Revenue Code states that each of these tax items can only be claimed for
one individual per tax year.
     • CTC12
     • Additional Child Tax Credit (ACTC)13

11
   The credit amount claimed for the EITC and the Additional Child Tax Credit was compared to IRS records to
determine if the credit amount had been changed during processing. Refund amounts claimed on returns claiming
the Child Tax Credit, Education Credit, Child and Dependent Care Credit, and Exemptions were compared to IRS
records.
12
   I.R.C. § 24, 151 and 152.
13
   I.R.C. § 24, 151 and 152.
                                                                                                       Page 8
                                    Multiple Use of Taxpayer Identification
                                  Numbers Continues to Result in Significant
                                     Erroneous Exemptions and Credits



      • EITC14
      • Education Credit15
      • Child and Dependent Care Credit (CCC)16
While we focused our analysis based on the above criteria, the overall number of erroneous
exemptions and credits resulting from multiple TIN use is a larger population. We identified
approximately 2.4 million unique TINs that were used to claim personal exemptions or one or
more of the tax credits we analyzed in TY 2007. These TINs were used on over 3.2 million tax
returns. The recommendations we made based on our analysis would also reduce erroneous
claims in the larger population as well. Figure 7 summarizes the erroneous tax benefit
individuals received on the 662,346 tax returns we evaluated.
     Figure 7: Summary of Tax Year 2007 Multiple TIN Uses and Erroneous Benefits
                                (Based on Certain Tax Credits/Exemptions)

                                                                                                  Amount of
                                      Number of           Number of                           Erroneous Benefit
                                      Multiple-Use        Times TIN        Number of               Received
             Tax Item                   TINs17            Was Used        Tax Returns18          (in millions)
Personal Exemption                         245,762         494,066              425,493                $84.4
Earned Income Tax Credit                   171,408         347,393              299,035              $219.0
Child Tax Credit                            65,992         132,267              116,755                $34.2
Additional Child Tax Credit                123,521         253,494              196,904                $40.5
Child & Dependent Care Credit                 3,033           6,123                5,780                $1.1
Education Credit                              2,300           4,600                4,593                $1.2
       Total Tax Benefit
                                                                                                     $380.519
       Received Incorrectly
Source: TIGTA analysis of the IRS IRTF and Individual Master File20 for TY 2007.

At the time tax returns are processed, the IRS cannot accurately identify individuals who use
TINs they are not entitled to use. Information that would be needed to verify appropriate use of

14
   I.R.C. § 32, 151 and 152.
15
   I.R.C. § 25A, 151 and 152.
16
   I.R.C. § 21, 151 and 152.
17
   Column does not add up to the 396,320 TINs because more than one of the credits listed can be claimed per TIN.
18
   Column does not add up to the 662,346 tax returns because more than one of the credits listed can be claimed per
tax return. Also, the total number of TIN uses does not equal the total number of tax returns filed because more than
one multiple-use TIN can appear on a tax return.
19
   Column does not add up to the total due to rounding.
20
   IRS database that maintains transactions and records of individual tax accounts.
                                                                                                             Page 9
                                 Multiple Use of Taxpayer Identification
                               Numbers Continues to Result in Significant
                                  Erroneous Exemptions and Credits



TINs is not required to be included with the tax return data individuals presently provide on their
tax returns. A complicating factor is that valid uses of a TIN (such as for a qualifying EITC
child) cannot always be verified using third-party data.
With the exception of rejecting e-filed tax returns, the majority of IRS efforts to reduce erroneous
exemptions and credits associated with multiple TIN uses are subsequent to the time that the
individuals receive the benefits. Even those individuals whose e-filed tax returns are rejected
because of multiple TIN uses can subsequently file paper tax returns containing the previously
used TINs and receive the erroneous tax benefits. Of the 662,346 TY 2007 tax returns which
involved erroneous exemptions and credits as a result of multiple TIN uses, 47 percent
(312,898 tax returns) were filed as paper tax returns. Figure 8 shows the volume of e-filed
versus paper returns.
     Figure 8: Multiple TIN Use Tax Returns – E-Filed Versus Paper – TY 2007

                                    Number of                            Number
             Number of Tax           E-Filed           Percent           of Paper    Percent
             Returns Filed           Returns           E-Filed           Returns      Paper

                 662,346              349,448             53%            312,898       47%
          Source: IRS TY 2007 IRTF.

The Majority of Multiple TIN Uses Involve Dependent TINs
The majority of multiple TIN uses involve dependent TINs, which further complicates the
problem of identifying the individuals who are not entitled. In the approximately 2 million
multiple dependent uses we identified in TY 2007, 96 percent involve 2 individuals claiming the
same dependent. These cases frequently involve two parents or close relatives claiming the same
child or children on their tax returns. Figure 9 provides a breakdown of the types of multiple
TIN uses we identified.
                       Figure 9: Combinations of Multiple TIN Uses
            TIN Use Combination              TY 2005             TY 2006            TY 2007
               Primary - Primary                 35,574             39,448             41,444
              Primary - Secondary               122,465            135,285            239,430
              Primary - Dependent             2,043,302          1,813,181          2,788,367
             Secondary - Secondary               23,114             19,772             18,143
             Secondary - Dependent              167,170            150,987            238,451
            Dependent - Dependent             2,090,070          1,890,850          1,995,781
         Source: Analysis of the IRS IRTF for TY 2005 through TY 2007.


                                                                                                Page 10
                               Multiple Use of Taxpayer Identification
                             Numbers Continues to Result in Significant
                                Erroneous Exemptions and Credits



We recognize the difficulty that the IRS faces in preventing erroneous exemptions and credits
associated with multiple TIN uses. However, there are additional actions the IRS can take to
reduce erroneous claims. These include:
   •   Expanding the issuance of notices to other segments of individuals involved with
       multiple TIN uses.
   •   Initiating additional compliance efforts on multiple TIN uses for erroneous EITC claims.
   •   Disallowing multiple uses of IRS-issued identification numbers.
   •   Initiating compliance efforts to prevent the abusive use of TINs (TINs used on **2(f)**or
       more tax returns).

Expanding the issuance of notices to other segments of individuals involved with
multiple TIN uses
As noted previously, the IRS issues a notice to an individual who uses a dependent TIN on a tax
return that has already been used as a dependent TIN on another tax return. A May 2009 IRS
study of the use of these notices indicates that the notices are effective at changing behavior.
According to the study:
   •   Ten percent of the individuals amended their original TY 2006 tax returns for a
       $2.6 million change in tax and $6.5 million in reduced EITC payments.
   •   Ninety-two percent of the individuals either did not file subsequent year tax returns or did
       not use the TINs in question on their subsequent year tax returns. The IRS estimated that
       it prevented $346.7 million in erroneous claims in TY 2007 as a result of notices issued
       in TY 2006.
Despite the success of the issuance of notices, the IRS has not expanded issuance to:
   •   Individuals involved in the multiple use of TINs to claim the ******2(f)**********
       ***2(f)*** on more than one tax return. In TY 2007, there were 127,978 TINs used
       264,217 times to claim these credits, with each TIN being used at least twice.
   •   Individuals involved in the multiple use of TINs as both a ***2(f)*** TIN on one tax
       return and a ***2(f)*** TIN on another tax return. In TY 2007, there were 116,182 TINs
       used 238,451 times, with each TIN used as both a ***2(f)***TIN and a ***2(f)***TIN.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should revise the
criteria used to determine who will receive a notice to include individuals identified by the
DUPTIN database when:

                                                                                           Page 11
                               Multiple Use of Taxpayer Identification
                             Numbers Continues to Result in Significant
                                Erroneous Exemptions and Credits



   •   A TIN is used as a ***2(f)***taxpayer on one tax return and as a ***2(f)***and/or for
       ***2(f)*** on another tax return.
   •   A TIN is used as a qualifying child for the *****2(f)*************************, and
       ***2(f)***.
       Management’s Response: IRS management disagrees with the recommendation to
       revise the criteria used to determine who will receive a notice to include individuals
       identified by the DUPTIN database when a TIN is used as a ***2(f)*** taxpayer on one
       tax return and as a ***2(f)***************** on another tax return. Issuing notices to
       taxpayers in this situation would result in inconsistent treatment because the IRS does not
       reject electronic returns in the reverse situation. Currently, returns are not rejected when
       the same TIN is used as a ***2(f)*****on a tax return and then subsequently used for a
       ******2(f)*************** on another tax return. This procedure is consistent with a
       prior Treasury Inspector General for Tax Administration recommendation.
       The IRS agrees the multiple use of a TIN for the *****************2(f)************
       ***2(f)******** results in improper payments. Issuance of current soft notices include
       taxpayers who have claimed duplicated dependents and the related credits for those
       dependents, such as the ***************2(f)***************. The IRS will conduct
       an analysis of the multiple use of a TIN to claim a qualifying child for the ***2(f)******
       **************2(f)***************** to validate the effectiveness of the treatment
       of this segment in the current soft notice population. Based on the analysis, the IRS will
       determine if there are gaps in its current strategy and, if so, the IRS will develop an
       appropriate plan to enhance the current soft notice strategy.
       Office of Audit Comment: Issuing a notice to individuals when a TIN is used as a
       ***2(f)*** taxpayer on one tax return and a ***2(f)************ on another tax return
       is consistent with IRS’ current notice issuance processes. For example, the IRS issues a
       notice to individuals when a TIN is used as a ***2(f)***taxpayer on one tax return and a
       ***2(f)*** taxpayer on another tax return. In addition, we are concerned that additional
       IRS analysis to determine if there are gaps in its current strategy for issuing soft notices
       may be duplicative. We identified and reported on existing gaps in our report. Our
       recommendation to revise the notice criteria to include individuals identified by the
       DUPTIN database when a TIN is used as a qualifying child for the ***2(f)***********
       ******2(f)*******************************addresses these gaps.

Initiating additional compliance efforts on multiple TIN uses for erroneous EITC
claims
Our analysis of the 662,346 TY 2007 tax returns with erroneous exemptions and credits as a
result of multiple TIN use showed that 45 percent (299,035 tax returns) involved the multiple use


                                                                                           Page 12
                                    Multiple Use of Taxpayer Identification
                                  Numbers Continues to Result in Significant
                                     Erroneous Exemptions and Credits



of TINs for the purpose of erroneously claiming the EITC. These individuals improperly
received an estimated $219 million in EITC claims (See Figure 8 on page 10).
In November 2009, the President signed an executive order aimed at reducing improper
payments. The purpose of the order was to intensify efforts to eliminate payment error, waste,
fraud, and abuse in the major Federal programs while continuing to ensure those programs serve
their intended beneficiaries. Agencies were ordered to make every effort to confirm the right
recipient receives the right payment. The Office of Management and Budget has designated the
EITC as one of the Federal programs for which the highest dollar value or majority of
Government-wide improper payments occur. According to the IRS, approximately
$10 to $12 billion in erroneous EITC claims is paid annually.
Although we identified 299,03521 tax returns that erroneously received the EITC, the IRS only
conducts a small number of audits of these tax returns. In FY 2009, the IRS closed **2(f)** audits
of multiple TIN use EITC claims. The IRS’ decision not to examine each tax return involved in
a multiple TIN use to claim the EITC results in improper payment of EITC claims since only one
individual is allowed to claim each TIN for the EITC. Payments resulting from these multiple
TIN uses are the type of improper payments the November 2009 Executive Order was intended
to stop.

Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should identify
alternative compliance processes that will include all individuals claiming the EITC with TINs
that were used on other tax returns to claim the EITC.
        Management’s Response: IRS management generally agrees with this
        recommendation. The IRS will continue to identify and test alternative compliance
        processes for individuals claiming the EITC with children’s TINs used on other EITC
        returns. The IRS currently addresses EITC multiple claims in the year the credit is
        claimed by conducting approximately 19,000 audits, about 4 percent or its total EITC
        examinations. The IRS plans to continue to explore new ways that may effectively
        improve compliance and further reduce improper payments in this area.

Disallowing multiple uses of IRS-issued identification numbers
The IRS issues ITINs to individuals; however, it has not developed processes to identify
individuals who are incorrectly using these numbers to claim ***2(f)************or tax credits.
Our analysis of the 662,346 TY 2007 tax returns involving erroneous ***2(f)****and credits as a

21
  This number identifies all tax returns involved in the multiple TIN uses to claim the EITC, including the tax
returns entitled to claim the TINs. For example, if three tax returns claimed the same TIN for the EITC, only one of
the tax returns would be entitled to claim the TIN for the EITC and the remaining two tax returns would not.
                                                                                                           Page 13
                                       Multiple Use of Taxpayer Identification
                                     Numbers Continues to Result in Significant
                                        Erroneous Exemptions and Credits



result of a multiple TIN use showed that 2 percent (12,041 tax returns) involved multiple uses of
an ITIN. These individuals used 8,008 ITINs and received an estimated $5.3 million in **2(f)**
***2(f)*** or tax credits included in our analysis.
The IRS is responsible for issuing ITINs to individuals who are required to file a tax return but
who do not have and are not eligible to obtain an SSN (i.e., resident and nonresident aliens) can
apply for an ITIN. An individual assigned an ITIN is required to submit documentation to the
IRS for use in verifying the identity of the individual. To obtain an ITIN, the individual, spouse,
or qualifying dependent must complete an Application for IRS Individual Taxpayer
Identification Number (Form W-7). The individual must also provide an original, certified, or
notarized copy of an unexpired passport to verify identity and foreign status. If the individual
does not have a passport, he or she must provide a combination of two or more current and
unexpired documents. Medical and school records can be used to establish foreign status for
dependents under the age of 14 (18 if a student) only if they are foreign documents. All
supporting documentation must show the individual’s name and support the claim of foreign
status. At least one document must contain the individual’s photograph.22
During tax return processing, the *******************2(f)****************************
******2(f)****************. The IRS should use the data it collects from individuals during
the ITIN assignment process to identify multiple-use ITINs and the filers who were not entitled
to use them.

Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should implement a
process to identify filers involved in the multiple use of ITINs who were not entitled to use them
and prevent and/or recover erroneous claims for ***2(f)*** and tax credits.
           Management’s Response: IRS management disagreed with this recommendation.
           The IRS has processes in place to identify filers involved in the multiple use of ITINs
           who were not entitled to use them and to prevent and/or recover erroneous claims for
           exemption and tax credits. Current programming already performs the same checks for
           ITINs as those performed for SSNs. Compliance efforts related to filers with ITINs are
           comparable to those in place for SSN filers, including issuance of targeted soft notices.
           **************************2(f)****************************************
           **********************************************************************
           **********************************************************************
           ********. As additional compliance processes are developed for taxpayers with SSNs,
           the IRS will ensure those efforts also address taxpayers who file tax returns or claim
           dependents using an ITIN.


22
     Photographs are not required for dependents under age 14 or under age 18 if a student.
                                                                                              Page 14
                                    Multiple Use of Taxpayer Identification
                                  Numbers Continues to Result in Significant
                                     Erroneous Exemptions and Credits



         Office of Audit Comment: Management’s comparison of an ITIN to a SSN does not
         address two primary differences. The IRS does not issue an SSN, and the primary data
         available with regard to an SSN******2(f)*************************. The IRS is the
         agency that issues the ITIN. The issuance is based on extensive information required to
         be provided by individuals who apply for an ITIN. As such, the IRS should have the
         ability to identify individuals using an ITIN to which they are not entitled. The IRS
         should have processes to use the information it has available to prevent the use of an
         ITIN for erroneous claims for ****2(f)********** and tax credits. The IRS also stated that
         taxpayer situations with regard to dependents often change, limiting the effectiveness of
         the use of this data to accurately identify entitled or nonentitled individuals at the same
         time the tax return is processed. At no time during our review did the IRS provide
         information in support of this conclusion.

Initiating compliance efforts to prevent the abusive use of TINs (TINs used on**2(f)**
or more tax returns)
Our analysis of the 662,346 TY 2007 tax returns involving erroneous exemptions and credits as a
result of multiple TIN uses showed that 5 percent (32,989 tax returns) involved TINs that were
used on 3 or more tax returns. These individuals received an estimated $34 million in personal
exemptions or tax credits included in our analysis. For example, we identified 2 TINs with over
1,000 attempted uses each in TYs 2005 through TY 2007. 23 Figure 10 provides a breakdown of
the frequency of TIN use for all TINs used more than once in TY 2005 through TY 2007.
                              Figure 10: Frequency of Multiple TIN Uses

              Number of Times a
                                              TY 2005              TY 2006             TY 2007
              TIN Was Used
                          2                   2,155,744            1,946,434            2,576,166
                          3                       30,791               28,315               33,372
                          4                         3,260                3,309               2,593
                     5 or More                      2,373                2,224               1,437
                Highest Number of
                 Uses for One TIN                 2,528              2,353                   1,801
            Source: Analysis of the IRS IRTF for TY 2005 through TY 2007.

Duplicate use could be caused by parents who were not filing jointly and were both claiming
their child as a dependent. In our opinion, the potential for fraud rises when the multiple use of


23
  Our analysis determined that individuals did not receive the personal exemption or any of the five tax credits we
received by using these TINs. However, we did not evaluate all possible tax benefits available.
                                                                                                           Page 15
                                  Multiple Use of Taxpayer Identification
                                Numbers Continues to Result in Significant
                                   Erroneous Exemptions and Credits



the TIN increases to more than two uses because it is less likely to result from a
misunderstanding or a child custody dispute. The filing locations of tax returns with
multiple-use TINs were sometimes concentrated into a specific geographical location. For
example, we identified 223 unique TINs that were used on 314 TY 2007 tax returns that were all
filed from 160 different addresses within the same city. 24
Our review of the IRS’ controls to identify and prevent multiple TIN uses showed that the IRS
has a control to identify TINs that are used more than **2(f)**times. However, it does not appear any
actions are taken on these cases. According to IRS management’s response to our prior audit
report recommendations, 25 tax returns with TINs that have been used more than **2(f)**times are to
be referred to the IRS’ Criminal Investigation function for review. ***2(f)********************
*******2(f)********************************************************.

Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, and the Chief,
Criminal Investigation, should establish processes to prevent and/or recover tax benefits
erroneously provided to taxpayers when a TIN is used more than **2(f)** times in a single tax year.
        Management’s Response: IRS management agrees with this recommendation. The
        IRS Wage and Investment Division will partner with the Criminal Investigation function
        to develop processes to implement referral procedures for the most egregious instances
        (**2(f)**or more) of multiple TIN uses. The Criminal Investigation function will review these
        instances to determine investigative and prosecutorial potential. When applicable, the
        Wage and Investment Division will pursue adding compliance treatment streams for
        these multiple TIN uses, and implement the necessary pre-refund compliance strategies to
        review any future uses of that TIN.




24
  More than one multiple-use TIN can appear on a single tax return.
25
  Duplicate Dependent and Qualifying Child Overclaims Result in Substantial Tax Revenue Losses Each Year
(Reference Number 2001-40-059, issued March 15, 2001).
                                                                                                    Page 16
                                     Multiple Use of Taxpayer Identification
                                   Numbers Continues to Result in Significant
                                      Erroneous Exemptions and Credits



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness of the IRS’ identification of
multiple uses of TINs and its ability to prevent individuals from inappropriately receiving tax
benefits as a result of the improper use of TINs. To accomplish our overall objective, we:
I.       Identified controls used by the IRS to identify and resolve multiple uses of TINs. We
         evaluated the adequacy of those controls in identifying and resolving the types of
         multiple TIN uses we identified in Step II.
II.      Identified 2,613,568 unique TINs used on the front of 4,622,707 TY 2007 Forms 1040
         filed during CY 2008.1 Our extract did not include TINs that were used on attached tax
         forms and schedules; TINs used on more than one tax return where the dependency
         indicator showed the individual could be claimed as a dependent on someone else’s tax
         return; or secondary TINs when filing status 3 was used, indicating the taxpayer is filing
         as married filing a separate tax return and the spouse is also filing a separate tax return.
         We categorized the TINs uses by type of use.
             •    Primary-Primary
             •    Secondary-Secondary
             •    Dependent-Dependent
             •    Primary-Dependent
             •    Primary-Secondary
             •    Secondary-Dependent
III.     Quantified the erroneous exemptions and credits for TINs used for both a primary
         taxpayer and secondary taxpayer, for both a primary taxpayer and a dependent, and for
         both a secondary taxpayer and a dependent used to claim the Education Credit and/or
         personal exemption. We quantified the erroneous exemptions and credits for TINs used
         as a dependent on at least two tax returns to claim an exemption and/or the tax items
         listed in the bullets below.2 For the CTC, CCC, Education Credit, and personal
         exemptions, our analysis was limited to only those tax returns that received a refund. For
         the EITC and the ACTC, we determined whether the credit amount had been changed
         during processing regardless of whether there was a refund on the tax return.


1
  See data validation methodology on the next page for a discussion of the source of this extract and the steps taken
to verify the accuracy of these data.
2
  We chose not to perform additional analysis of the multiple TIN uses in the primary-primary and secondary-
secondary categories based on the volume of uses in these categories.
                                                                                                             Page 17
                                    Multiple Use of Taxpayer Identification
                                  Numbers Continues to Result in Significant
                                     Erroneous Exemptions and Credits



                 •    EITC
                 •    CTC
                 •    ACTC
                 •    CCC
                 •    Education Credit
                 •    Personal exemption
        A. Identified 396,320 unique TINs that were used on 662,346 tax returns in TY 2007
           that received tax benefits in error by determining if the IRS adjusted the tax items in
           the bullets above during return processing. We assumed the IRS had not adjusted the
           tax return for the multiple-use TINs if the taxpayers’ figures on the tax returns for the
           EITC and the ACTC matched the figures on the Master File.3 For the remaining tax
           credits and personal exemptions4 that did not have separate transactions on the Master
           File, we determined if the refund amounts on the tax returns matched the refund
           amounts on the Master File.
        B. Quantified the tax credits received in error by identifying the portion of the tax credits
           associated with each multiple-use TIN. A TIN may be used once a year to claim each
           of the tax credits we reviewed; therefore, to be conservative, we assumed the TIN use
           with the highest value for each credit was the valid use.
        C. Quantified the value of the tax exemptions received in error. Because a TIN may be
           used once a year to claim the personal exemption, we did not include the value for
           one use of each TIN in our estimated outcome. Again to be conservative, we
           multiplied the total exemption for each additional use of a TIN by 10 percent to limit
           the tax effect estimate of the exemption amount to the lowest available tax bracket.
        D. Analyzed the characteristics of the multiple-use TINs we identified. We determined
           if the TINs were issued by the IRS. We also determined how tax returns containing
           multiple-use TINs were filed.
Data validation methodology
During the course of this review, we relied on data extracted from the IRS’ IRTF5 for TY 2007.
We extracted all TINs used in the six TIN positions on the front of the Form 1040. Our extract
did not include those TINs listed on supporting tax forms and schedules filed with the Form
1040. Our extract also did not include additional dependents claimed by the taxpayer that could
not be listed on the front of the tax return.

3
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
4
  To determine the exemption amount on the Master File, we multiplied the TY 2007 individual exemption amount
by the number of exemptions shown on the Master File.
5
  The IRTF contains all edited, transcribed, and error-corrected data from the Form 1040 series and related forms.
                                                                                                          Page 18
                                Multiple Use of Taxpayer Identification
                              Numbers Continues to Result in Significant
                                 Erroneous Exemptions and Credits



We validated the accuracy of the data extracted by verifying the accuracy of the individual data
elements captured to the source data. We then analyzed these data to identify TINs that had been
used on more than one tax return. We did not consider a TIN used as a primary TIN on one tax
return and as a dependent on another tax return a multiple-use TIN when the dependency
indicator showed the taxpayer could be claimed as a dependent. We reconciled the results of this
analysis to the IRS’ DUPTIN database. This reconciliation ensured that we had captured all of
the multiple TIN uses we had intended to capture and that additional uses were not overlooked
when extracting our data. Based on our data validation efforts, we determined the IRTF data
extract and our identification of multiple TIN uses for TY 2007 were reliable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS e-file reject controls, paper tax return
processing controls to identify and resolve multiple TIN uses, and the DUPTIN database. Our
review assessed the adequacy of the internal control structure designed to identify and resolve
multiple TIN uses before tax benefits are paid to individuals. As such, we evaluated the control
structure in place to identify weak or missing controls that would allow tax benefits to be paid to
individuals inappropriately. We did not test the effectiveness of the individual controls in this
review.




                                                                                            Page 19
                             Multiple Use of Taxpayer Identification
                           Numbers Continues to Result in Significant
                              Erroneous Exemptions and Credits



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Deann L. Baiza, Audit Manager
Karen C. Fulte, Lead Auditor
Sharon A. Buford, Senior Auditor
Kathleen A. Hughes, Senior Auditor
Sharla J. Robinson, Senior Auditor
James M. Allen , Information Technology Specialist




                                                                                    Page 20
                             Multiple Use of Taxpayer Identification
                           Numbers Continues to Result in Significant
                              Erroneous Exemptions and Credits



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation SE:CI
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Technology Operations and Investigative Services, Criminal Investigation SE:CI:TOIS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Earned Income Tax, Wage and Investment Division SE:W:ETARC:E
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PRA:PEI
       Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                     Page 21
                                      Multiple Use of Taxpayer Identification
                                    Numbers Continues to Result in Significant
                                       Erroneous Exemptions and Credits



                                                                                   Appendix IV

                                       Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Funds Put to Better Use – Potential; $1,094,862,725 in EITC paid in error over the next
       5 years as a result of multiple TIN uses (see page 8).

Methodology Used to Measure the Reported Benefit:
We identified 396,320 TINs that were used more than once on 662,346 TY 2007 tax returns.
Our analysis indicates the IRS did not make adjustments to these 662,346 tax returns during
return processing.
We analyzed the 662,346 tax returns and found that 299,035 tax returns contained TINs that
were used more than once on the Earned Income Credit (Schedule EIC) to claim the EITC. The
Internal Revenue Code1 states that an individual can only be used once in each tax year for the
purposes of claiming the EITC.
To determine the amount of the EITC claimed on each of the 299,035 tax returns for the
multiple-use TIN, we computed the total EITC allowed by summing the EITC per computer
amount on the IRTF2 for each of the 299,035 tax returns. We determined that the EITC claims
on these 299,035 tax returns totaled $806,519,333.
Using the taxpayer’s Adjusted Gross Income, we estimated the amount of EITC allowable for
each child claimed for the EITC on the tax return that did not have a multiple-use TIN. Figure 1
shows the percentage of the total EITC claim we estimated for non-multiple-use TINs by
Adjusted Gross Income. Using these percentages, we estimate $244,316,124 in EITC claimed
on the 299,035 tax returns was associated with a non-multiple-use TIN.




1
    I.R.C. § 32, 151 and 152.
2
    File of Individual Tax Returns processed by the IRS.
                                                                                            Page 22
                               Multiple Use of Taxpayer Identification
                             Numbers Continues to Result in Significant
                                Erroneous Exemptions and Credits



          Figure 1: Percentage of EITC Allowed for Non-Multiple-Use TINs

                    Adjusted Gross             Percent Used to Estimate EITC
                       Income                    for Non-Multiple-Use TINs
                $5,000 or less                                  85%
                $5,000.01 to $10,000                            78%
                $10,000.01 to $15,000                           66%
                $15,000.01 to $20,000                           59%
                $20,000.01 to $25,000                           54%
                $25,000.01 to $30,000                           44%
                Over $30,000                                    36%
               Source: TIGTA analysis of 2007 Publication 596, Earned Income Credit (EIC),
               Earned Income Credit Table.

We subtracted the estimated amount of EITC associated with a non-multiple-use TIN on each tax
return from the total EITC claimed to determine the amount of EITC associated with the
multiple-use TIN on that tax return. We estimate $562,203,209 ($806,519,333 - $244,316,124)
in EITC claims on the 299,035 tax returns were associated with a multiple-use TIN.
Since an individual can use a TIN once a year to claim the EITC, we estimated the amount of
EITC that was claimed properly for each multiple-use TIN. In an effort to ensure our estimate
was not overstated, we determined the largest amount of EITC claimed for each multiple-use
TIN for the 299,035 tax returns and subtracted this amount. We estimate the total amount of
EITC claims would be $343,230,664 if the multiple-use TIN had only been used one time.
We estimate $218,972,545 ($562,203,209 - $343,230,664) in EITC claims associated with
multiple-use TINs on 299,035 TY 2007 tax returns was paid in error. We estimate the amount of
EITC claims paid in error as a result of multiple TIN uses over the next 5 years will total
$1,094,862,725.

Type and Value of Outcome Measure:
•   Funds Put to Better Use – Potential; $202,735,975 in ACTC paid in error over the next
    5 years as a result of multiple TIN uses (see page 8).

Methodology Used to Measure the Reported Benefit:
We identified 396,320 TINs that were used more than once on 662,346 TY 2007 tax returns.
Our analysis indicates the IRS did not make adjustments to these 662,346 tax returns during
return processing.

                                                                                             Page 23
                                    Multiple Use of Taxpayer Identification
                                  Numbers Continues to Result in Significant
                                     Erroneous Exemptions and Credits



We analyzed the 662,346 tax returns and found that 196,904 tax returns contained TINs that
were used more than once to claim the ACTC. The Internal Revenue Code3 states that an
individual can only be used as a dependent once in each tax year for the purposes of claiming the
ACTC.
To determine the amount of the ACTC claimed on each of the 196,904 tax returns for the
multiple-use TIN, we computed the total ACTC allowed by summing the ACTC per computer
amount on the IRTF for each of the 196,904 tax returns. We determined the ACTC claims on
these 196,904 tax returns totaled $197,480,169.
For those tax returns that also used non-multiple-use TINs to claim the ACTC, we estimated the
amount of the ACTC associated with the non-multiple-use TIN. We determined the number of
dependents claimed for the CTC4 on each tax return. Then we calculated the difference between
the total number of dependents claimed for the CTC and the number of multiple-use TINs used
for the ACTC on each tax return. We used the following formula to calculate the percentage of
ACTC associated with the non-multiple-use TIN for each tax return.
                     Number of CTC Dependents – Number of Multiple-Use TINs
                                  Number of CTC Dependents
We multiplied the total ACTC claimed on each tax return by the percentage of ACTC for
non-multiple-use TINs to determine the amount of ACTC claimed for non-multiple-use TINs.
We estimate $80,099,714 in ACTC claimed on the 196,904 tax returns was associated with a
non-multiple-use TIN. We then subtracted this amount from the total ACTC claimed on the
196,904 tax returns to compute the amount of ACTC claimed for multiple-use TINs. Using this
method, we estimate $117,380,454 in ACTC claims for multiple-use TINs.
Since an individual can use a TIN once a year to claim the ACTC, we estimated the amount of
ACTC that was claimed properly for each multiple-use TIN. In an effort to ensure our estimate
was not overstated, we determined the largest amount of ACTC claimed for each multiple-use
TIN for the 196,904 tax returns and subtracted this amount. We estimate the total amount of
ACTC claims would be $76,833,259 if the multiple-use TIN had only been used one time.
We estimate $40,547,195 ($117,380,454 - $76,833,259) in ACTC claims associated with a
multiple-use TIN on 196,904 TY 2007 tax returns were paid in error. We estimate the amount of
ACTC claims paid in error as a result of a multiple TIN use over the next 5 years will total
$202,735,975.




3
    I.R.C. § 24, 151 and 152.
4
    The ACTC uses the same dependents as the CTC.
                                                                                         Page 24
                                  Multiple Use of Taxpayer Identification
                                Numbers Continues to Result in Significant
                                   Erroneous Exemptions and Credits



Type and Value of Outcome Measure:
•      Revenue Protected – Potential; $171,246,930 in erroneous CTC paid over the next 5 years as
       a result of multiple TIN uses (see page 8).

Methodology Used to Measure the Reported Benefit:
We identified 396,320 TINs that were used more than once on 662,346 TY 2007 tax returns.
Our analysis indicates the IRS did not make adjustments to these 662,346 tax returns during
return processing.
We analyzed the 662,346 tax returns and found that 116,755 tax returns contained TINs that
were used more than once to claim the CTC. The Internal Revenue Code5 states that an
individual can only be used once in each tax year for the purposes of claiming the CTC.
To determine the amount of the CTC claimed on each of the 116,755 tax returns for the
multiple-use TIN, we computed the total CTC allowed by summing the CTC per computer
amount on the IRTF for each of the 116,755 tax returns. We determined the CTC claims on
these 116,755 tax returns totaled $126,477,186.
For those tax returns that also used non-multiple-use TINs to claim the CTC, we estimated the
amount of CTC associated with the non-multiple-use TIN. We determined the number of
dependents claimed for the CTC on each tax return. We then calculated the difference between
the total number of dependents claimed for the CTC and the number of multiple-use TINs used
for the CTC on each tax return. We used the following formula to calculate the percentage of
CTC associated with the non-multiple-use TIN for each tax return.
                       Number of CTC Dependents – Number of Multiple-Use TINs
                                    Number of CTC Dependents
We multiplied the total CTC claimed on each tax return by the percent of CTC for
non-multiple-use TINs to determine the amount of CTC claimed for non-multiple-use TINs. We
estimate $36,447,269 in CTC claimed on the 116,755 tax returns was associated with
non-multiple-use TINs. We then subtracted this amount from the total CTC claimed on the
116,755 tax returns to compute the amount of CTC claimed for multiple-use TINs. Using this
method, we estimate $90,029,918 in CTC claims for multiple-use TINs.
Since an individual can use a TIN once a year to claim the CTC, we estimated the amount of
CTC that was claimed properly for each multiple-use TIN. In an effort to ensure our estimate
was not overstated, we determined the largest amount of CTC claimed for each multiple-use TIN
for the 116,755 tax returns and subtracted out this amount. We estimate the total amount of CTC
claims would be $55,780,532 if the multiple-use TIN had only been used one time.


5
    I.R.C. § 24, 151 and 152.
                                                                                          Page 25
                                     Multiple Use of Taxpayer Identification
                                   Numbers Continues to Result in Significant
                                      Erroneous Exemptions and Credits



We estimate $34,249,386 ($90,029,918 - $55,780,532) in CTC claims associated with a
multiple-use TIN on 116,755 TY 2007 tax returns was paid in error. We estimate the amount of
CTC claims paid in error as a result of multiple TIN use over the next 5 years will total
$171,246,930.

Type and Value of Outcome Measure:
•      Revenue Protected – Potential; $5,748,975 in erroneous CCC paid in error over the next
       5 years as a result of multiple TIN uses (see page 8).

Methodology Used to Measure the Reported Benefit:
We identified 396,320 TINs that were used more than once on 662,346 TY 2007 tax returns.
Our analysis indicates the IRS did not make adjustments to these 662,346 tax returns during
return processing.
We analyzed the 662,346 tax returns and found that 5,780 tax returns contained TINs that were
used more than once to claim the CCC. The Internal Revenue Code6 states that an individual can
only be used once in each tax year for the purposes of claiming the CCC.
To determine the amount of the CCC claimed on each of the 5,780 tax returns for the
multiple-use TIN, we computed the total CCC allowed by summing the CCC per computer
amount on the IRTF for each of the 5,780 tax returns. We determined the CCC claims on these
5,780 tax returns totaled $3,495,382.
For those tax returns that also used non-multiple-use TINs to claim the CCC, we estimated the
amount of CCC associated with the non-multiple-use TIN. We summed the amount of child and
dependent care expenses for each child claimed on Child and Dependent Care Expenses
(Form 2441) and calculated the percentage of total expenses related to each child.
                                Child and Dependent Care Expenses per Child
                                 Total Child and Dependent Care Expenses
Using the percentage of child and dependent care expenses computed above, we determined the
amount of expenses attributable to non-multiple-use TINs claimed on each tax return. For
example, if dependent 2 was the non-multiple-use TIN, we multiplied the total child and
dependent care expenses by the percentage of expenses for dependent 2. We estimate $574,598
in CCC claimed on the 5,780 tax returns was associated with non-multiple-use TINs. This
allowed us to prorate the total expenses in those instances where the taxpayer was not entitled to
the full CCC.
We subtracted the estimated amount of CCC associated with a non-multiple-use TIN on each tax
return from the total CCC claimed to determine the amount of CCC associated with the

6
    I.R.C. § 21, 151 and 152.
                                                                                           Page 26
                                   Multiple Use of Taxpayer Identification
                                 Numbers Continues to Result in Significant
                                    Erroneous Exemptions and Credits



multiple-use TIN on that tax return. We estimate $2,920,784 ($3,495,382 - $574,598) in CCC
claims on the 5,780 tax returns was associated with multiple-use TINs.
Since an individual can use a TIN once a year to claim the CCC, we estimated the amount of
CCC that was claimed properly for each multiple-use TIN. In an effort to ensure our estimate
was not overstated, we determined the largest amount of CCC claimed for each multiple-use TIN
for the 5,780 tax returns and subtracted this amount out. We estimate the total amount of CCC
claims would be $1,770,989 if the multiple-use TINs had only been used one time.
We estimate $1,149,795 ($2,920,784 - $1,770,989) in CCC claims associated with multiple-use
TINs on 5,780 TY 2007 tax returns was paid in error. We estimate the amount of CCC claims
paid in error as a result of multiple TIN use over the next 5 years will total $5,748,975.

Type and Value of Outcome Measure:
•     Revenue Protected – Potential; $5,969,575 in erroneous Education Credits paid over the next
      5 years as a result of multiple TIN uses (see page 8).

Methodology Used to Measure the Reported Benefit:
We identified 396,320 TINs that were used more than once on 662,346 TY 2007 tax returns.
Our analysis indicates the IRS did not make adjustments to these 662,346 tax returns during
return processing.
We analyzed the 662,346 tax returns and found that 4,593 tax returns contained TINs that were
used more than once to claim the Education Credits. The Internal Revenue Code7 states that an
individual can only be used once in each tax year for the purposes of claiming the Education
Credits.
To determine the amount of the Education Credits claimed on each of the 4,593 tax returns for
the multiple-use TIN, we computed the total Education Credits allowed by summing the
Education Credits per computer amount on the IRTF for each of the 4,593 tax returns. We
determined the Education Credit claims on these 4,593 tax returns totaled $4,406,747.
For those tax returns that also used non-multiple-use TINs to claim the Education Credits, we
estimated the amount of credit associated with the non-multiple-use TIN. We computed the
percentage of non-multiple-use TINs used to claim the Education Credits on Education Credits
(American Opportunity, Hope, and Lifetime Learning Credits) (Form 8863) using the formula
below.
                          Total Number of TINs – Number of Multiple-Use TINs
                                         Total Number of TINs


7
    I.R.C. § 25A, 151 and 152.
                                                                                         Page 27
                                Multiple Use of Taxpayer Identification
                              Numbers Continues to Result in Significant
                                 Erroneous Exemptions and Credits



We multiplied the total Education Credits on Forms 8863 by the percentage of non-multiple-use
TINs to determine the amount of Education Credits claimed for non-multiple-use TINs. We
estimate $475,829 in Education Credits claimed on the 4,593 tax returns was associated with a
non-multiple-use TIN. We then subtracted this amount from the total Education Credits claimed
on the 4,593 tax returns to compute the amount of Education Credits claimed for multiple-use
TINs. Using this method, we estimate $3,930,917 in Education Credits was claimed for
multiple-use TINs.
Since an individual can use a TIN once a year to claim the Education Credits, we estimated the
amount of Education Credits that were claimed properly for each multiple-use TIN. In an effort
to ensure our estimate was not overstated, we determined the largest amount of Education
Credits claimed for each multiple-use TIN for the 4,593 tax returns and subtracted this amount.
We estimate the total amount of Education Credits would be $2,737,002 if the multiple-use TIN
had only been used one time.
We estimate $1,193,915 ($3,930,917 - $2,737,002) in Education Credit claims associated with a
multiple-use TIN on 4,593 TY 2007 tax returns was paid in error. We estimate the amount of
Education Credit claims paid in error as a result of multiple TIN use over the next 5 years will
total $5,969,575.

Type and Value of Outcome Measure:
•     Revenue Protected – Potential; $422,116,800 tax effect for personal exemptions allowed in
      error over the next 5 years as a result of multiple TIN uses (see page 8).

Methodology Used to Measure the Reported Benefit:
We identified 396,320 TINs that were used more than once on 662,346 TY 2007 tax returns.
Our analysis indicates the IRS did not make adjustments to the tax items we reviewed on these
662,346 tax returns during return processing.
We analyzed the 662,346 tax returns and found that 425,493 tax returns contained TINs that
were used more than once to claim personal exemptions. The Internal Revenue Code8 states that
an individual can only be used once in each tax year for the purposes of claiming a personal
exemption.
To determine the amount of the personal exemptions claimed on each of the 425,493 tax returns
with a multiple-use TIN, we multiplied each use of a multiple-use TINs claimed on the tax return
by the TY 2007 exemption amount ($3,400). Since an individual can use a TIN once a year to
claim the personal exemption, we estimated the amount of personal exemption that was claimed
properly for each multiple-use TIN. To do so, we determined the largest amount of personal
exemption for each multiple-use TIN for the 425,493 tax returns and subtracted this amount from

8
    I.R.C. § 151 and 152.
                                                                                         Page 28
                              Multiple Use of Taxpayer Identification
                            Numbers Continues to Result in Significant
                               Erroneous Exemptions and Credits



the total potential exemptions at risk. We then multiplied the remaining estimated exemptions
for multiple-use TINs by the lowest available tax bracket (10 percent). This resulted in an
estimate of $340 per multiple TIN use. Using this methodology, we estimate the total tax effect
of the improper personal exemptions for multiple TIN uses on 425,493 TY 2007 tax returns was
$84,423,360. We estimate the tax effect of these improper exemptions as a result of multiple
TIN use over the next 5 years will total $422,116,800.




                                                                                        Page 29
                              Multiple Use of Taxpayer Identification
                            Numbers Continues to Result in Significant
                               Erroneous Exemptions and Credits



                                                                                Appendix V

  Treasury Inspector General for Tax Administration
                   Audit Reports

The Treasury Inspector General for Tax Administration has issued two prior audit reports on the
multiple uses of TINs. Our findings and recommendations are summarized below.
Duplicate Dependent and Qualifying Child Overclaims Result in Substantial Tax Revenue
Losses Each Year (Reference Number 2001-40-059, dated March 15, 2001). ***2(f)*******
****************************2(f)**********************************************
****************************************************************************
*****************************************************************************
*****************************************************************************
*****************************************************************************
****************************************************************************
****************************************************************************
****************************************************************************
*****************************************************************************
********************.
Efforts to Prevent Improper Tax Benefits Resulting From Multiple Uses of Taxpayer
Identification Numbers Can Be Improved (Reference Number 2006-40-007, dated
November 4, 2005). **************************2(f)*******************************
******************************************2(f)*******************************
*****************************************************************************
*****************************************************************************
*****************************************************************************
****************************************************************************
****************************************************************************
*****************************************************************************
*****************************************************************************
*****************************************************************************
*****************************************************************************
**************************************************




                                                                                        Page 30
          Multiple Use of Taxpayer Identification
        Numbers Continues to Result in Significant
           Erroneous Exemptions and Credits



                                                Appendix VI

Soft Notice Sent to First-Time Multiple
Taxpayer Identification Number Users




                                                     Page 31
  Multiple Use of Taxpayer Identification
Numbers Continues to Result in Significant
   Erroneous Exemptions and Credits




                                             Page 32
